APPENDIX

1a
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 14-10268
D.C. No. 3:12-cr-00834-EMC-1
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
MONICO DOMINGUEZ,
Defendant-Appellant.
Appeal from the United States District Court
for the Northern District of California
Edward M. Chen, District Judge, Presiding
Argued and Submitted July 7, 2016
Submission Vacated July 12, 2016
Argued and Resubmitted December 10, 2019
Filed April 7, 2020
Pasadena, California
Before: Barry G. Silverman and Jacqueline H. Nguyen,
Circuit Judges, and Michael M. Anello,* District Judge.

*

The Honorable Michael M. Anello, United States District
Judge for the Southern District of California, sitting by designation.

2a
Opinion by Judge Silverman;
Partial Concurrence and Partial
Dissent by Judge Nguyen
OPINION
SUMMARY**
Criminal Law
The panel reversed a conviction of money laundering (18 U.S.C. § 1957); and affirmed the remainder of
the judgment, which included convictions of Hobbs Act
robbery (18 U.S.C. §§ 1951(a) and 2), attempt to commit
Hobbs Act robbery (18 U.S.C. §§ 1951(a) and 2), conspiracy to commit Hobbs Act robbery (18 U.S.C.
§ 1951(a)), and possession of a firearm in furtherance of
a crime of violence (18 U.S.C. § 924(c)).
The panel held that the evidence was sufficient to
support the conviction of attempted Hobbs Act robbery, where the evidence overwhelmingly showed that
the defendant had the specific intent to commit the
robbery and had taken a “substantial step” toward its
completion—arming himself with a handgun and driving to within about a block of a planned robbery with
his accomplice, turning around only because he got ensnared in a fake crime scene.
In light of recent Supreme Court cases, the panel
reiterated this court’s previous holding that Hobbs Act
armed robbery is a crime of violence for purposes of 18
U.S.C. § 924(c)(3)(A).
**

This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

3a
The panel held that when a substantive offense is a
crime of violence under § 924(c)(3)(A), an attempt to
commit that offense is also a crime of violence; and that
attempted Hobbs Act armed robbery is a crime of violence for purposes of § 924(c) because its commission
requires proof of both the specific intent to complete a
crime of violence, and a substantial step actually (not
theoretically) taken toward its completion. The panel
explained that it does not matter that the substantial
step is not itself a violent act or even a crime; what
matters is that the defendant specifically intended to
commit a crime of violence and took a substantial step
toward committing it. The panel observed that the definition of “crime of violence” in § 924(c)(3)(A) explicitly
includes not just completed crimes, but those felonies
that have the “attempted use” of physical force as an
element; and that it is impossible to commit attempted
Hobbs Act robbery without specifically intending to
commit every element of the completed crime, which
includes the commission or threat of physical violence.
Because the panel determined that each of the defendant’s § 924(c) convictions is supported by a predicate crime of violence—completed and attempted
Hobbs Act robbery, respectively—the panel did not
reach whether conspiracy to commit Hobbs Act robbery is also a crime of violence under 18 U.S.C.
§ 924(c)(1)(A).
Concurring in part and dissenting in part from
Part V.B of the majority opinion, Judge Nguyen wrote
that attempted Hobbs Act robbery plainly does not fit
the definition of a crime of violence under the elements
clause, § 924(c)(3)(A), because, as the majority
acknowledges, attempted Hobbs Act robbery can be

4a
committed without any actual use, attempted use, or
threatened use of physical force.
*

*

*

OPINION
SILVERMAN, Circuit Judge:
On August 11, 2011, appellant Monico Dominguez
and a man named Milton Fierro robbed the Garda Cash
Logistics armored car warehouse in Santa Rosa, California. Wearing masks and armed with an AK-47 rifle
and either a 9-millimeter or a .45 caliber handgun, the
two men snuck into the Garda warehouse. They pointed their guns at two guards, put them on the ground,
tied their hands and feet with rope, and demanded access to the vault. The robbers made off with over
$900,000 in cash and two guns belonging to one of the
guards.
About a year later, Dominguez approached his
friend Kevin Jensen and offered him $100,000 to participate in another Garda robbery, this time of a Garda
armored car. When Jensen found out that the FBI was
offering a $100,000 reward for information about the
previous year’s Garda robbery, he contacted the FBI
and became a confidential informant. That’s how the
FBI was able to thwart the second robbery before it
was completed.
On August 6, 2012, Dominguez and Jensen drove
toward the Garda warehouse intending to hold up an
armored car. This time, Dominguez was armed with a
.357 revolver. Tipped off by Jensen, the FBI and local
enforcement officers staged a fake crime scene near the
warehouse to make it difficult for a vehicle to get close
to it. While en route to the warehouse, Dominguez re-

5a
ceived a phone call, after which Dominguez told Jensen
they had to terminate the plan because of the unusual
law enforcement activity near the Garda building.
Dominguez drove to within about a block or so of the
warehouse before turning around. Dominguez was arrested the following day and charged with Hobbs Act
robbery of the Garda warehouse in 2011, attempted
Hobbs Act robbery of a Garda armored car in 2012,
possession of firearms in furtherance of both crimes,
conspiracy, money laundering, and structuring transactions.
We hold today that the evidence was sufficient to
support Dominguez’s conviction of attempted Hobbs
Act robbery. The evidence overwhelmingly showed
that Dominguez had the specific intent to commit the
robbery and had taken a “substantial step” toward its
completion—arming himself with a handgun and driving to within about a block of the planned robbery with
his accomplice, turning around only because he got ensnared in the fake crime scene.
In light of recent Supreme Court cases, we also reiterate our previous holding that Hobbs Act armed
robbery is a crime of violence for purposes of 18 U.S.C.
§ 924(c)(3)(A). See United States v. Mendez, 992 F.2d
1488, 1491 (9th Cir. 1993).
And, like the two other circuit courts that have
considered the question, we hold that when a substantive offense is a crime of violence under 18 U.S.C.
§ 924(c)(3)(A), an attempt to commit that offense is also
a crime of violence. See United States v. Ingram, 947
F.3d 1021 (7th Cir. 2020); United States v. St. Hubert,
909 F.3d 335 (11th Cir. 2018); Hill v. United States, 877
F.3d 717 (7th Cir. 2017). We agree with the Eleventh
Circuit that attempted Hobbs Act armed robbery is a

6a
crime of violence for purposes of § 924(c) because its
commission requires proof of both the specific intent to
complete a crime of violence, and a substantial step actually (not theoretically) taken toward its completion.
St. Hubert, 909 F.3d at 351. It does not matter that the
substantial step—be it donning gloves and a mask before walking into a bank with a gun, or buying legal
chemicals with which to make a bomb—is not itself a
violent act or even a crime. What matters is that the
defendant specifically intended to commit a crime of
violence and took a substantial step toward committing
it. The definition of “crime of violence” in § 924(c)(3)(A)
explicitly includes not just completed crimes, but those
felonies that have the “attempted use” of physical force
as an element. It is impossible to commit attempted
Hobbs Act robbery without specifically intending to
commit every element of the completed crime, which
includes the commission or threat of physical violence.
18 U.S.C. § 1951. Since Hobbs Act robbery is a crime of
violence, it follows that the attempt to commit Hobbs
Act robbery is a crime of violence.
I.

CONVICTIONS AND SENTENCE

Following his arrest, Dominguez was charged with
eleven counts in connection with the 2011 robbery and
the attempted 2012 robbery. The relevant counts are:
Count One: conspiracy to commit the 2011 robbery,
in violation of 18 U.S.C. § 1951(a);
Count Two:
§§ 1951(a) and 2;

robbery in violation of 18 U.S.C.

Count Three: possession of a firearm in furtherance of a crime of violence, namely the 2011 conspiracy
(Count One) and robbery (Count Two), in violation of 18
U.S.C. §§ 924(c) and 2;

7a
Count Four: money laundering in violation of 18
U.S.C. § 1957 in the August 30, 2011 cash purchase of a
Harley-Davidson motorcycle;
Count Eight: conspiracy to commit the August 6,
2012 robbery, in violation of 18 U.S.C. § 1951(a);
Count Nine: attempted robbery on August 6, 2012,
in violation of 18 U.S.C. §§ 1951(a) and 2; and
Count Ten: possession of a firearm in furtherance
of a crime of violence, namely the 2012 conspiracy
(Count Eight) and the 2012 attempted robbery (Count
Nine).1
In his closing argument, the prosecutor argued that
Dominguez had completed a “substantial step” toward
the 2012 attempted robbery, because he turned his car
around only in response to law enforcement presence,
not because he’d had a change of heart. Dominguez’s
counsel did not object to the prosecutor’s arguments
and, in his own closing, conceded (with his client’s consent) the defendant’s guilt of the attempted robbery.
The jury convicted Dominguez of Counts One
through Ten in the indictment. The district court imposed a prison sentence totaling 384 months and one
day: one day for Counts One, Two, and Four through
Nine, to be served concurrently with each other; 84
months for Count Three, Dominguez’s first § 924(c) violation, to be served consecutively to that one-day term;
and 300 months for Count Ten, Dominguez’s second
§ 924(c) conviction, to be served consecutively to all
other sentences imposed.
1

Dominguez was indicted on additional money laundering and
structuring charges; however, Dominguez doesn’t argue any error
in those convictions, so we do not reach them.

8a
II. STANDARD OF REVIEW
We review insufficient evidence claims de novo.
United States v. Sullivan, 522 F.3d 967, 974 (9th Cir.
2008). Evidence is sufficient to support a conviction if,
viewed “in the light most favorable to the prosecution,
any rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt.”
United States v. Nevils, 598 F.3d 1158, 1163-64 (9th Cir.
2010) (en banc) (citation omitted).
We review de novo whether a criminal conviction is
a crime of violence under § 924(c)(3). United States v.
Begay, 934 F.3d 1033, 1037 (9th Cir. 2019). “Where, as
here, a party raises an argument for the first time on
appeal, we generally review for plain error; however,
we are not limited to plain error review when we are
presented with a question that is purely one of law and
where the opposing party will suffer no prejudice as a
result of the failure to raise the issue in the trial court.”
Id. (citation and internal quotation marks omitted).
Here, whether Hobbs Act robbery, attempted Hobbs
Act robbery, and conspiracy to commit Hobbs Act robbery are crimes of violence are pure questions of law,
and the government, which has fully briefed the issue,
suffers no prejudice. See id. at 1037-38.
We review for plain error Dominguez’s claim that
the prosecutor misstated the law during closing argument, because Dominguez raises this issue for the first
time on appeal. See, e.g., United States v. Joseph, 716
F.3d 1273, 1276 (9th Cir. 2013).
III. COUNT FOUR:

MONEY LAUNDERING (18 U.S.C.

§ 1957)
Count Four charged Dominguez with money laundering, in violation of 18 U.S.C. § 1957, for buying a mo-

9a
torcycle that he paid for in cash with money stolen in
the robbery. The government concedes, and we agree,
that this conviction must be vacated because the government failed to establish an essential element—
namely, that the funds at issue passed through a financial institution. See 18 U.S.C. § 1957 (defining “monetary transaction” as one “by, through, or to a financial
institution”); United States v. Ness, 565 F.3d 73, 78 (2d
Cir. 2009) (“[I]n order to sustain a § 1957(a) conviction,
a financial institution must have been involved.”). We
reverse Count 4 of Dominguez’s conviction.2
IV. COUNT NINE: ATTEMPTED HOBBS ACT ROBBERY (18

U.S.C. §§ 1951(A) AND 2)
Dominguez next argues that the government’s evidence is legally insufficient to establish that he took a
“substantial step” toward completion of the August
2012 attempted robbery. Instead, he argues that he
never got sufficiently close to the intended target because he voluntarily turned around more than a block
away from the warehouse.
We may consider Dominguez’s substantive argument only if we find that he did not waive it when his
counsel, with Dominguez’s permission, repeatedly conceded Dominguez’s guilt of the attempted robbery.
See, e.g., United States v. Bentson, 947 F.2d 1353, 1356
(9th Cir. 1991) (rejecting defendant’s sufficiency claim
after defendant’s counsel made binding admission in
closing). For example, in his closing argument, defense
counsel told the jury:
2

We do not remand for resentencing because Dominguez’s
one-day sentence for Count Four was to be served concurrently
with his one-day sentences on Counts One, Two, and Five through
Nine.

10a
Monico Dominguez, my client, is guilty of
Counts Eight and Nine. He is guilty. You
can go ahead and fill out the Verdict Form
that you’re going to get … This is not an
easy thing to tell you … . but my client is
authorizing me to do it because there really
is no dispute.
Later, counsel told the jury:
Mr. Dominguez, my client, planned a very,
very, very serious criminal act. He’s just
admitted it to you now. He’s telling you to
convict him of the August 2012 robbery,
Counts Eight and Nine.
Even assuming counsel’s statements are not binding admissions, there is more than sufficient evidence in
the record to support Dominguez’s conviction for attempted robbery. To sustain the conviction, the government must prove that (1) Dominguez had the intent
to commit the robbery; and (2) Dominguez “took a substantial step toward” committing that robbery. United
States v. Nelson, 66 F.3d 1036, 1042 (9th Cir. 1995).
First, Dominguez concedes, in his appellate briefing,
that the government’s evidence of his intent to commit
the August 2012 robbery is not subject to reasonable
dispute.
Next, “[t]o constitute a substantial step,
[Dominguez]’s actions must go beyond mere preparation, and must corroborate strongly the firmness of the
[his] criminal intent.” Id. The government’s evidence
obviously meets this burden. Dominguez organized the
August 6, 2012 attempt, geared up by dressing in dark
clothes and body armor, packed weapons, drove toward
the targeted warehouse, confirmed the code to the lock
on the warehouse where the armored car was to be

11a
stored after the robbery, and called off the plan only
after being alerted by a co-conspirator of heavy law enforcement presence.
These acts clearly manifest
Dominguez’s specific intent to rob a particular place in
a particular manner in the immediate future. See Hernandez-Cruz v. Holder, 651 F.3d 1094, 1103 (9th Cir.
2011).
We are not persuaded by Dominguez’s argument
that he did not take a substantial step toward the robbery because he turned around about a block away
from the warehouse. This physical distance, he argues,
is greater than the proximity of the would-be robbers
in United States v. Buffington, 815 F.2d 1292 (9th Cir.
1987), and United States v. Still, 850 F.2d 607 (9th Cir.
1988), cases where this court found that the evidence
was insufficient to show that defendants had taken a
substantial step. The reasoning in those cases, though,
was not based on the defendants’ physical proximity to
the location to be robbed; the analyses instead centered
on whether the defendants had progressed far enough
that, absent independent circumstances, they would
complete the robbery. See Still, 850 F.2d at 610 (explaining that the “facts d[id] not establish either actual
movement toward the bank or actions that are analytically similar to such movement”); Buffington, 815 F.2d
at 1303 (characterizing defendants’ conduct as “entirely
tentative and unfocused”). Dominguez’s actions in,
among other things, arming himself, driving toward the
warehouse, and turning around only when he knew that
there was a large police presence near the warehouse,
are sufficient to allow a rational trier of fact to find the
substantial step beyond a reasonable doubt. Nevils,
598 F.3d at 1164.
Alternatively, Dominguez argues that we should
reverse his attempted robbery conviction because the

12a
prosecutor misstated the law during his closing argument. Specifically, the prosecutor explained the “substantial step” element to the jury by telling them that:
[A] “substantial step” means that if Mr.
Dominguez had a change of heart, and he
went out there, started driving out, and decided, “This is a bad idea. Somebody could
get killed. I could get killed. This is a serious crime. I don’t want to do this,” and decided to turn around and go home, he would
not be guilty of that step.
This description, Dominguez now says, improperly
overlaps the “substantial step” requirement with
Dominguez’s intent to commit the robbery, and so we
should reverse his conviction. We are not persuaded.
Assuming for the purpose of this discussion that the
government erred, then any error did not prejudice
Dominguez in light of (1) his counsel’s subsequent admission of Dominguez’s guilt; and (2) the sufficiency of
the evidence to support the conviction. See, e.g., Joseph, 716 F.3d at 1277 (explaining that reversal on plain
error review requires, among other things, finding that
the error affected defendant’s substantial rights).
There is no plain error in Dominguez’s conviction
on Count Nine, and we affirm.
V. COUNTS THREE AND TEN—POSSESSION OF A FIREARM
IN FURTHERANCE OF A CRIME OF VIOLENCE (18 U.S.C.

§ 924)
Dominguez argues, in supplemental briefing, that
we must reverse his convictions for possession of a firearm in furtherance of a crime of violence, because the
Supreme Court has now held that 18 U.S.C.
§ 924(c)(3)(B), the so−called “residual clause,” is uncon-

13a
stitutionally vague, and because none of his predicate
crimes qualify as a crime of violence under
§ 924(c)(3)(A), the so−called “elements” clause. We disagree.
18 U.S.C. § 924(c)(1)(A) prescribes heightened
criminal penalties for using or carrying a firearm “during and in relation to,” or possessing a firearm “in furtherance of,” any federal “crime of violence or drug
trafficking crime.” In United States v. Davis, 139 S.Ct.
2319, 2324 (2019), the Supreme Court held that a “crime
of violence” is an offense that is a felony and “has as an
element the use, attempted use, or threatened use of
physical force against the person or property of another.” Id., quoting 18 U.S.C. § 924(c)(3)(A). “Physical
force” is “force capable of causing physical pain or injury,” and includes “the amount of force necessary to
overcome a victim’s resistance.” Stokeling v. United
States, 139 S. Ct. 544, 553-55 (2019), citing Johnson v.
United States, 559 U.S. 133, 140 (2010)); see also Ward
v. United States, 936 F.3d 914, 919 (9th Cir. 2019) (explaining that our prior distinction between “substantial” and “minimal” force in the ACCA robbery context
is no longer viable after Stokeling).
The question then is whether an alleged predicate
crime meets the Johnson standard and thus qualifies as
a crime of violence. See United States v. Watson, 881
F.3d 782, 784 (9th Cir. 2018). We use the categorical
approach to make that determination. Id. Under this
approach, the sole focus is on the elements of the relevant statutory offense, not on the facts underlying the
convictions. Id. An offense is categorically a crime of
violence only if the least violent form of the offense

14a
qualifies as a crime of violence. Id.3 Where two counts
served as predicate offenses for a § 924(c) conviction,
the conviction is lawful so long as either offense qualifies as a crime of violence. See United States v. Gobert,
943 F.3d 878, 880 n.2 (9th Cir. 2019); see also Mendez,
992 F.2d at 1491 (“[W]here a defendant has been convicted under a statute describing crimes of both violence and nonviolence, we need only find that the
charged crime for which the defendant was convicted
constitutes a ‘crime of violence.’”).4
Dominguez’s predicate crimes were violations of
18 U.S.C. § 1951, which provides, in pertinent part:
(a) Whoever in any way or degree obstructs, delays, or affects commerce or
the movement of any article or commodity in commerce, by robbery or extortion or attempts or conspires so to
do, or commits or threatens physical
violence to any person or property in
furtherance of a plan or purpose to do
anything in violation of this section
shall be fined under this title or imprisoned not more than twenty years, or
both.
3

18 U.S.C. § 1951 is a divisible statute, criminalizing both
robbery and extortion, so we apply the modified categorical approach to determine which alternative formed the basis of
Dominguez’s conviction. Descamps v. U.S., 570 U.S. 254, 257
(2013). The indictment makes clear that the predicate crimes at
issue are robbery, attempted robbery, and conspiracy to commit
robbery.
4

We reject Dominguez’s argument that we must first analyze
whether conspiracy to commit Hobbs Act robbery is a crime of
violence.

15a
(b) As used in this section—
(1) The term “robbery” means the unlawful taking or obtaining of personal property from the person or
in the presence of another, against
his will, by means of actual or
threatened force, or violence, or
fear of injury, immediate or future,
to his person or property, or property in his custody or possession,
or the person or property of a relative or member of his family or of
anyone in his company at the time
of the taking or obtaining.
Dominguez’s first § 924(c) charge, Count Three of
the indictment, charged him with possessing a firearm
in furtherance of the 2011 Hobbs Act robbery and/or of
conspiracy to commit Hobbs Act robbery. Dominguez’s
second § 924(c) charge, Count Ten, charged him with
possessing a firearm in furtherance of the 2012 attempted Hobbs Act robbery and/or of conspiracy to
commit Hobbs Act robbery.
A. Hobbs Act Robbery (18 U.S.C. § 1951) is a
“Crime of Violence”
We previously held in Mendez that Hobbs Act robbery is a crime of violence under the elements clause.
Mendez, 992 F.2d at 1491 (holding that robbery, as defined in 18 U.S.C. § 1951(b)(1), “indisputably qualifies as
a crime of violence,” and noting that it contained an “element of ‘actual or threatened force, or violence’”); see
also United States v. Howard, 650 F. App’x 466, 468
(9th Cir. June 24, 2016) (unpublished memorandum).

16a
We are in unanimous company. All of our sister
circuits have considered this question too, and have
held that Hobbs Act robbery is a crime of violence under the elements clause. See United States v. Mathis,
932 F.3d 242, 266 (4th Cir. 2019); United States v.
Jones, 919 F.3d 1064, 1072 (8th Cir. 2019); United
States v. Garcia-Ortiz, 904 F.3d 102, 106-09 (1st Cir.
2018); United States v. Melgar-Cabrera, 892 F.3d 1053,
1060-66 (10th Cir. 2018); United States v. Hill, 890 F.3d
51, 60 (2d Cir. 2018); United States v. Fox, 878 F.3d 574,
579 (7th Cir. 2017); United States v. Gooch, 850 F.3d
285, 292 (6th Cir. 2017); United States v. Buck, 847 F.3d
267, 275 (5th Cir. 2017); In re St. Fleur, 824 F.3d 1337,
1340-41 (11th Cir. 2016). See also, e.g., United States v.
Robinson, 844 F.3d 137, 141-44 (3d Cir. 2016).5
Dominguez nonetheless argues that Hobbs Act
robbery is not a crime of violence under the elements
clause because, he says, it may be committed “by placing a victim in fear of injury to some intangible economic interest.” Such “threats,” he argues, would not require any use, attempted use, or threatened use of violent physical force.
Fear of injury is the least serious way to violate
18 U.S.C. § 1951, and therefore, the species of the crime
that we should employ for our categorical analysis. But
even Hobbs Act robbery committed by placing a victim
in fear of bodily injury is categorically a crime of violence under the elements clause, because it “requires at
least an implicit threat to use the type of violent physical force necessary to meet the Johnson standard.”
United States v. Guiterrez, 876 F.3d 1254, 1257 (9th Cir.
5

The Third Circuit does not apply the categorical approach in
this context, but it has held that specific Hobbs Act robbery convictions qualify as crimes of violence under the elements clause.

17a
2017) (“A defendant cannot put a reasonable person in
fear of bodily harm without threatening to use ‘force
capable of causing physical pain or injury.’” (citation
omitted)); cf. United States v. Selfa, 918 F.2d 749, 751
(9th Cir. 1990) (holding that analogous federal bank
robbery statute, which may be violated by “intimidation,” qualifies as crime of violence under sentencing
guidelines).
We need not analyze whether the same would be
true if the target were “intangible economic interests,”
because Dominguez fails to point to any realistic scenario in which a robber could commit Hobbs Act robbery by placing his victim in fear of injury to an intangible economic interest. Cf. Gonzales v. DuenasAlvarez, 549 U.S. 183, 193 (2007) (explaining that, under the categorical approach, there must be a “realistic
possibility” that a state would apply a state statute to
conduct that falls outside the generic definition of a
federal crime); Garcia-Ortiz, 904 F.3d at 107-08.
Dominguez’s reliance on cases analyzing Hobbs Act extortion, or jury instructions generally describing how
the statute may be violated, do not “point to … cases in
which … . courts in fact did apply the statute in the
special (nongeneric) manner for which he argues.” Duenas-Alvarez, 549 U.S. at 193.
In Mathis, the Fourth Circuit rejected this precise
argument:
We also observe that both Section 924(c)
and Hobbs Act robbery reference the use
of force or threatened use of force against
“property” generally, without further defining the term “property.” … . And neither provision draws any distinction between tangible and intangible property.

18a
Thus, we do not discern any basis in the
text of either statutory provision for creating a distinction between threats of injury
to tangible and intangible property for the
purposes of defining a crime of violence.
Mathis, 932 F.3d at 266. We agree with and adopt this
reasoning.
Dominguez further argues that Hobbs Act robbery
can somehow be “predicated on gross negligence or
reckless conduct,” and so lacks the necessary mens rea
to qualify as a crime of violence. Dominguez is wrong.
We have previously held that “criminal intent—acting
‘knowingly or willingly’—is an implied and necessary
element that the government must prove for a Hobbs
Act conviction.” United States v. Du Bo, 186 F.3d 1177,
1179 (9th Cir. 1999) (citation omitted).
We reaffirm that Hobbs Act robbery is a crime of
violence under 18 U.S.C. § 924(c)(3)(A), and we affirm
Dominguez’s conviction on Count Three.
B. Attempted Hobbs Act Robbery is a “Crime of
Violence”
Because completed Hobbs Act robbery is a crime of
violence under § 924, attempted Hobbs Act robbery is
also a crime of violence. In so holding, we agree with
the Seventh and Eleventh Circuits that, when a substantive offense would be a crime of violence under
18 U.S.C. § 924(c)(3)(A), an attempt to commit that offense is also a crime of violence. There is no circuit
court decision to the contrary. United States v. Ingram, 947 F.3d 1021, 1025-26 (7th Cir. 2020) (attempted
Hobbs Act robbery is a crime of violence under 18
U.S.C. § 924(c)); United States v. St. Hubert, 909 F.3d
335, 351-53 (11th Cir. 2018), petition for cert. filed, (U.S.

19a
July 18, 2019) (No. 19-5267) (analyzing attempted
Hobbs Act robbery); Hill v. United States, 877 F.3d
717, 719 (7th Cir. 2017), cert. denied, 139 S.Ct. 352
(2018) (analyzing Illinois attempted murder; holding
that “[w]hen a substantive offense would be a violent
felony under § 924(e) and similar statutes, an attempt
to commit that offense is also a violent felony.”) 6; cf.
United States v. D.D.B., 903 F.3d 684, 689-93 (7th Cir.
2018) (declining to apply Hill rule where state law did
not require proof of intent for attempt conviction).
The reasons for this are straightforward. 18 U.S.C.
§ 924(c)(3)(A) explicitly includes as crimes of violence
offenses that have as an element the “attempted use”
or “threatened use” of force. In order to be guilty of
attempt, a defendant must intend to commit every element of the completed crime. See, e.g., Nelson, 66 F.3d
at 1042 (attempt conviction requires evidence that defendant intended to violate the statute). An attempt to
commit a crime should therefore be treated as an attempt to commit every element of that crime. Hill, 877
F.3d at 719. “When the intent element of the attempt
offense includes intent to commit violence against the
person of another, … . it makes sense to say that the
attempt crime itself includes violence as an element.”
Hill, 877 F.3d at 719.
Not so, argues Dominguez, because the “substantial step” required for an attempt conviction need not
be itself violent. Since the elements of attempt are only
6

The Seventh Circuit analyzed whether attempted murder,
in violation of Illinois law, was a violent felony under the Armed
Career Criminal Act. We have held that the operative language of
18 U.S.C. § 924(e)(2)(B)(i) is identical to the portion of the elements
clause at issue in this case. See United States v. Fultz, 923 F.3d
1192, 1194 n. 1 (9th Cir. 2019).

20a
an intent to commit the crime, along with a substantial
step, Dominguez argues that attempt crimes contain no
“element” of force. This argument would have us ignore his specific intention to commit a violent crime, as
well as common sense. A criminal who specifically intends to use violence, and then takes a substantial step
toward that use, has, by definition, attempted a violent
crime, albeit an uncompleted one.
Moreover, adopting Dominguez’s approach in this
case would be plainly inconsistent with our prior determination that “[t]he ‘attempt’ portion of [a] conviction does not alter our determination that the conviction is a crime of violence. We have ‘generally found
attempts to commit crimes of violence, enumerated or
not, to be themselves crimes of violence.’” Arellano
Hernandez v. Lynch, 831 F.3d 1127, 1132 (9th Cir. 2016)
(quoting United States v. Riley, 183 F.3d 1155, 1160
(9th Cir. 1999) (citing cf. 8 U.S.C. § 1101(a)(43)(U)
(providing that an aggravated felony includes the attempt to commit the offense)).
We hold that attempted Hobbs Act robbery is a
crime of violence under 18 U.S.C. § 924(c)(3)(A). We
affirm Dominguez’s conviction on Count Ten.
C. Conspiracy to Commit Hobbs Act Robbery
We do not reach whether Conspiracy to Commit
Hobbs Act robbery is also a crime of violence under
18 U.S.C. § 924(c)(1)(A) because we have determined
that each of Dominguez’s § 924(c) convictions is supported by a predicate crime of violence—completed and
attempted Hobbs Act robbery, respectively.7
7

In answer to a judge’s question at oral argument, government counsel took the position that the mens rea required for at-

21a
VI. CONCLUSION
Dominguez’s conviction of money laundering in
Count Four is REVERSED. The remainder of the
judgment is AFFIRMED.

tempted crimes and for conspiracy is identical. Two days later,
counsel filed a 28j letter “to clarify” that the intent required for
attempts and conspiracy is not the same. We acknowledge the
good faith of counsel’s original answer and are thankful for the
clarification. Although we look to the parties for help in determining the controlling law, we are not bound by the parties’ analyses,
stipulations, or purported concessions. The law, as the saying
goes, is what it is.

22a
NGUYEN, Circuit Judge, concurring in part and dissenting in part:
A Hobbs Act robbery is a crime of violence under
18 U.S.C. § 924(c)(3)(A)—the “elements” clause—
because it’s a felony that “has as an element the use,
attempted use, or threatened use of physical force
against the person or property of another.” But the
same isn’t true for an attempted Hobbs Act robbery.
The categorical approach requires us to focus on
the “least serious form” of criminal conduct necessary
for a conviction. United States v. Gobert, 943 F.3d 878,
881 (9th Cir. 2019). Only “[i]f the least of the acts criminalized by [a given crime] would be a crime of violence
under § 924(c)(3)(A) … is [the crime] categorically a
crime of violence under the elements clause.” United
States v. Fultz, 923 F.3d 1192, 1194-95 (9th Cir. 2019).
Here, as the majority acknowledges, an attempted
Hobbs Act robbery can be committed without any actual use, attempted use, or threatened use of physical
force. Maj. Op. 6. Therefore, it plainly does not fit the
definition of a crime of violence under the elements
clause. Yet in a leap of logic, the majority nevertheless
holds that “when a substantive offense is a crime of violence under 18 U.S.C. § 924(c)(3)(A), an attempt to
commit that offense is also a crime of violence.” Id. at
6.
I respectfully dissent from Part V.B of the majority
opinion.
I.
A.
To determine “whether a particular conviction satisfies the specified elements of a sentence-enhancement

23a
provision,” we apply the categorical approach. United
States v. Piccolo, 441 F.3d 1084, 1086 (9th Cir. 2006).
We “do not examine the facts underlying the prior offense, but look only to the fact of conviction and the
statutory definition of the prior offense.” Id. (quoting
United States v. Corona-Sanchez, 291 F.3d 1201, 1203
(9th Cir. 2002) (en banc)). “The defendant’s crime cannot categorically be a ‘crime of violence’ if the statute of
conviction punishes any conduct not encompassed by
the statutory definition of a ‘crime of violence.’” United
States v. Benally, 843 F.3d 350, 352 (9th Cir. 2016) (citing Descamps v. United States, 570 U.S. 254, 257
(2013)). Thus, a crime is categorically a crime of violence only “[i]f the least of the acts criminalized by [that
crime] would be a crime of violence under
§ 924(c)(3)(A).” Fultz, 923 F.3d at 1194-95.
Here, Monico Dominguez was convicted in Count
Ten of violating 18 U.S.C. § 924(c), possessing a firearm
in furtherance of a crime of violence, namely, an attempted Hobbs Act robbery as charged in Count Nine.
A “crime of violence” is defined as a felony that “has as
an element the use, attempted use, or threatened use of
physical force against the person or property of another.”1 18 U.S.C. § 924(c)(3)(A).
Attempted Hobbs Act robbery has two elements:
(1) intending to commit a Hobbs Act robbery; and (2)
taking a substantial step toward completing that crime.

1

The degree of “physical force” must be “violent,” defined as
“force capable of causing physical pain or injury.’” United States v.
Watson, 881 F.3d 782, 784 (9th Cir. 2018) (quoting Johnson v.
United States, 559 U.S. 133, 140 (2010)). “Physical” force is “[f]orce
consisting in a physical act”—as distinguished from “intellectual
force or emotional force.” Johnson, 559 U.S. at 138-39.

24a
United States v. Soto−Barraza, 947 F.3d 1111, 1120 (9th
Cir. 2020).
Attempted Hobbs Act robbery is not a crime of violence because a substantial step toward completing a
Hobbs Act robbery need not involve the use, attempted
use, or threatened use of physical force. Compare three
examples:
1.

A man stops an armored vehicle and
shoots and injures the driver. But the
driver escapes with the money.

2.

A man intercepts an armored vehicle
by standing in front of it with his gun
pointed at the driver. He pulls the
trigger, intending to strike and injure
the driver, but the gun jams. The driver escapes with the money.

3.

A man plans a robbery, buys the necessary gear, and drives toward the target, but returns home after seeing police in the vicinity.

Each scenario describes an attempted Hobbs Act
robbery. In (1), the man uses physical force. In (2), the
man attempts to use physical force. In (3), the man
does not use, attempt to use, or threaten to use physical
force, even though he intended to commit a robbery
and took a substantial step toward committing it.2 This
last scenario—a possible “least serious form” of at2

We have already held that similarly aborted non-violent
conduct constituted a substantial step toward committing robbery.
See United States v. Moore, 921 F.2d 207, 209 (9th Cir. 1990) (affirming conviction for attempted bank robbery where defendant
“was walking toward the bank, wearing a ski mask, and carrying
gloves, pillowcases, and a concealed, loaded gun”).

25a
tempted Hobbs Act robbery—shows that an attempted
Hobbs Act robbery does not qualify as a crime of violence under the elements clause.
B.
Nowhere in its opinion does the majority apply the
categorical approach to attempted Hobbs Act robbery.
Rather, the majority’s bare−bones analysis consists of
several correct-but-irrelevant statements intermixed
with illogical conclusions. The majority begins by
pointing out that § 924(c)(3)(A), the elements clause,
“includes as crimes of violence offenses that have as an
element the ‘attempted use’ or ‘threatened use’ of
force.” Maj. Op. 19. This is definitionally correct. The
majority then notes that, “[i]n order to be guilty of attempt, a defendant must intend to commit every element of the completed crime.” Id. at 19-20. Again, a
correct statement of law. But the majority then veers
off track by concluding that “[a]n attempt to commit a
crime should therefore be treated as an attempt to
commit every element of that crime.” Id. at 20. That
conclusion doesn’t follow as a matter of law or logic.
There’s no legal basis to conclude from an attempt conviction that the defendant attempted to commit every
element of the underlying crime. And there’s a logical
gap: the majority conflates attempt and intent. Only
by substituting “intended” for “attempted” does the
majority’s analysis make sense.
Perhaps the majority’s disconnect stems from
§ 924(c)(3)(A)’s use of the word “attempted.” At a
glance, the “attempted use … of physical force” might
appear to be synonymous with the intended use of
physical force. Under this reading, all crimes in which
a defendant intends to use physical force would qualify
as crimes of violence. But that isn’t what § 924(c)(3)(A)

26a
plainly says or means. An “attempted use … of physical force” under § 924(c)(3)(A) refers to a defendant’s
physical act of trying (but failing) to use violent physical force. Attempted, Merriam−Webster Dictionary,
https://www.merriam−webster.com/
dictionary/attempted (defining “attempted” as “having been
tried without success”). Further, the other two qualifying elements—using and threatening to use physical
force—obviously refer to acts. See Weyer v. Twentieth
Century Fox Film Corp., 198 F.3d 1104, 1114 (9th Cir.
2000) (explaining, under the principle of noscitur a sociis, that terms must “be interpreted within the context
of the accompanying words”). Even the majority recognizes, in its completed Hobbs Act robbery analysis,
that the categorical approach requires us to compare
the range of acts that the Hobbs Act criminalizes with
the acts that render a crime violent under
§ 924(c)(3)(A). See Maj. Op. 17 (explaining that “[f]ear
of injury is the least serious way to violate 18 U.S.C.
§ 1951, and therefore, the species of the crime that we
should employ for our categorical analysis”).
The majority then leaps to the conclusion that
“[w]hen the intent element of the attempt offense includes intent to commit violence against the person of
another, … it makes sense to say that the attempt
crime itself includes violence as an element.” Id. at 20.
But that’s not a correct statement of the law: attempted Hobbs Act robbery does not in fact “include[] violence as an element.” Id. at 20. As the majority concedes elsewhere in its opinion, attempted Hobbs Act
robbery can be completed without any threatened use
or attempted use of force. Id. at 6. The majority’s
analysis therefore impermissibly bootstraps a defendant’s intent to commit a violent crime into categorizing
all attempts of crimes of violence as violent crimes

27a
themselves. And it casts aside the categorical approach, which requires us to compare the acts proscribed by an underlying crime to the violent acts enumerated in § 924(c)(3)(A). See Fultz, 923 F.3d at 1194
(framing the inquiry as “whether the [enhancement]
conviction could stand if it rested upon the ‘least of the
acts criminalized’” (citation omitted)); Benally, 843 F.3d
at 352 (explaining that a crime can’t be a crime of violence if it “punishes any conduct not encompassed by
the statutory definition” of a crime of violence).
The majority declares that a contrary analysis
“would have us ignore [Dominguez’s] specific intention
to commit a violent crime.” Maj. Op. 20. True,
Dominguez’s attempt conviction means that he specifically intended to commit a violent crime. But that’s not
relevant under the categorical approach. A crime of
violence is one that “has as an element the use, attempted use, or threatened use of physical force against
the person or property of another.”
18 U.S.C.
§ 924(c)(3)(A). Nowhere in this definition is there an
element of “intent to commit a violent crime.”
And it’s also irrelevant that “[a] criminal who specifically intends to use violence, and then takes a substantial step toward that use, has, by definition, attempted a violent crime, albeit an uncompleted one.”
Maj. Op. 20. The question is not whether a defendant
attempts a violent crime but whether the crime of attempt itself qualifies as a crime of violence.
The majority doesn’t address whether conspiracy
to commit Hobbs Act robbery also is a crime of violence. Had it done so, it would’ve faced a dilemma: the
government concedes that conspiracy to commit Hobbs

28a
Act robbery is not a crime of violence,3 but the intent
requirement for conspiracy is the same as for attempt.
United States v. Espinoza−Valdez, 889 F.3d 654, 656
(9th Cir. 2018) (holding that the elements of a conspiracy are “(1) an agreement to accomplish an illegal objective, and (2) the intent to commit the underlying offense” (emphasis added) (citation omitted)). If conspiracy and attempt have the same intent requirement,
how, under the majority’s approach, could the result be
different? The majority doesn’t say.4
C.
I recognize that the Seventh and Eleventh Circuits
have held that attempted Hobbs Act robbery is a crime
of violence under the elements clause. Unfortunately,
their opinions suffer from the same flaws as the majority’s.
In United States v. Ingram, 947 F.3d 1021 (7th Cir.
2020), the Seventh Circuit, like the majority here, failed
to apply the categorical analysis. The court relied
3

The government is correct. Conspiracy to commit Hobbs
Act robbery requires that: “(1) two or more people agreed to
commit a robbery … ; (2) the defendant had knowledge of the conspiratorial goal; and (3) the defendant voluntarily participated in
trying to accomplish the conspiratorial goal.” United States v. Si,
343 F.3d 1116, 1123-24 (9th Cir. 2003). Merely agreeing to participate in a robbery is obviously less likely to involve the use, attempted use, or threatened use of physical force than a substantial
step toward committing the robbery. See United States v. Simms,
914 F.3d 229, 233-34 (4th Cir. 2019).
4

The majority suggests that Arellano Hernandez v. Lynch,
831 F.3d 1127, 1132 (9th Cir. 2016), and United States v. Riley, 183
F.3d 1155, 1160 (9th Cir. 1999), stand in the way of my analysis.
But nothing in those cases binds us here, especially given that they
describe only a “general[]” approach. Riley, 183 F.3d at 1160.

29a
heavily on its conclusion in a prior case, Hill v. United
States, that “‘[w]hen a substantive offense would be a
violent felony under § 924(e) and similar statutes, an
attempt to commit that offense also is a violent felony’
so long as the attempt offense ‘requires proof of intent
to commit all elements of the completed crime.’” Id. at
1026 (quoting Hill v. United States, 877 F.3d 717, 719
(7th Cir. 2017)). From there, the court reasoned that
because the elements clauses of “§ 924(e) and § 924(c)
use almost identical language,” Hill’s ruling should be
extended to § 924(c). Id.
Like the majority, the Seventh Circuit viewed the
“attempt[]” in § 924(c)(3)(A) as a stand-in for intent.
That analysis not only misinterpreted the statute but
also flouted the categorical approach. By focusing only
on a defendant’s intent while attempting Hobbs Act
robbery, the court failed to consider the “least serious
form” of attempted Hobbs Act robbery.
The Eleventh Circuit took an overlapping but distinct approach. See United States v. St. Hubert, 909
F.3d 335, 351-53 (11th Cir. 2018). It explained that “attempted Hobbs Act robbery qualifies as a crime of violence under § 924(c)(3)(A)’s use-of-force clause because
that clause expressly includes ‘attempted use’ of force.”
Id. at 351 (emphasis in original). The implication is that
§ 924(c)(3)(A)’s use of “attempted” means that attempts
are crimes of violence. But this wrongly equates the
“attempted use … of physical force” language from
§ 924(c)(3)(A) with the crime of “attempt[ed]” Hobbs
Act robbery from § 1951(a). It would be nonsensical for
§ 924(c)(3)(A) to refer to the crime of attempt as an element of a crime of violence.
The Eleventh Circuit also observed that
§ 924(c)(3)(A) “equates the use of force with attempted

30a
force, and thus the text … makes clear that actual force
need not be used for a crime to qualify” as a violent
crime. Id. at 352. True, but that’s beside the point; a
crime of violence must have as an element the attempted use of physical force, which is entirely different from
one’s intent to use physical force.
Like the majority, the Eleventh Circuit did “recognize” that a substantial step toward Hobbs Act robbery
need not involve a violent act. Id. at 352-53 (imagining
“a robber could plan the robbery and travel with a gun
to the location of the robbery but be caught before entering the store”). It dismissed the relevance of the
scenario, reasoning that “the robber has attempted to
use actual or threatened force because he has attempted to commit a crime that would be violent if completed.” Id. at 353. That’s simply wrong. The robber
would have attempted to commit a violent crime because he intended to use force and he took a substantial
step toward committing a robbery—not because he attempted to use physical force.
As Judge Pryor persuasively explained in a dissent
from denial of rehearing en banc, “[i]ntending to commit each element of a crime involving the use of force
simply is not the same as attempting to commit each
element of that crime. By the alchemy of transmuting
intent to commit each element into attempt to commit
each element, the panel conjured the conclusion that
anyone convicted of an attempt to commit a crime involving force must have been found beyond a reasonable doubt to have attempted to use force.” United
States v. St. Hubert, 918 F.3d 1174, 1212 (11th Cir. 2019)
(Pryor, J., dissenting from denial of rehearing en banc).
And she noted that the court’s own example proved
that “an individual’s conduct may satisfy all the elements of an attempt to commit an elements-clause of-

31a
fense without anything more than intent to use elements-clause force and some act (in furtherance of the
intended offense) that does not involve the use, attempted use, or threatened use of such force.” Id.
No other circuit has tackled this issue. But the
Fourth Circuit’s holding that conspiracy to commit
Hobbs Act robbery is not a crime of violence is relevant. See Simms, 914 F.3d at 233-34. The court explained that, in order to “convict a defendant of [conspiracy to commit Hobbs Act robbery], the Government must prove only that the defendant agreed with
another to commit actions that, if realized, would violate the Hobbs Act.” Id. “Such an agreement,” reasoned the court, “does not invariably require the actual,
attempted, or threatened use of physical force.” Id. at
234. This reasoning applies with equal force to the
crime of attempted Hobbs Act robbery. Comparing the
act element of an attempt—a substantial step—with
the qualifying act elements of a crime of violence leads
to only one conclusion. Attempted Hobbs Act robbery
does not qualify as a crime of violence.
II.
Whatever intuitive appeal the majority’s position
may have, the categorical approach compels the conclusion that attempted Hobbs Act robbery does not qualify as a crime of violence under § 924(c)(3)(A). I therefore dissent from the majority’s holding that attempted
Hobbs Act robbery is a crime of violence, and I would
reverse the conviction on Count Ten. I otherwise join
in the majority opinion.

33a
APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
USDC Case Number: DCAN 3:12CR00834-001 EMC
BOP Case Number: 0971312CR00834-001
USM Number: 17820-111
UNITED STATES OF AMERICA,
v.
MONICO DOMINGUEZ,

Filed January 28, 2015
Defendant’s Attorney: Jai Gobel (Appointed)
JUDGMENT IN A CRIMINAL CASE

THE DEFENDANT:
 pleaded guilty to count(s): ______
 pleaded nolo contendere to count(s): ______ which
was accepted by the court.
 was found guilty on count(s): one through ten after
a plea of not guilty.

34a
The defendant is adjudicated guilty of these offenses:
Title &
Section

Nature of
Offense

18 U.S.C.
§ 1951(a)

Conspiracy
August 11, 2011
to Commit August 6, 2012
Robbery
Affecting
Interstate
Commerce

One
and
Eight

18 U.S.C.
§ 1951(a)(2)

Robbery
Affecting
Interstate
Commerce

Two
and
Nine

18 U.S.C.
§ 924(c)(2)

Possession
August 11, 2011
of a Firearm and
in Further- August 6, 2012
ance of a
Crime
of
Violence

Three
and
Ten

18 U.S.C.
§ 1957

Money
Laundering

August 30, 2011,
December 4,
2011 and
March 7, 2012

Four
through
Six

June 29, 2012

Seven

31 U.S.C.
Structuring
§ 5324(a)(3)
and
31 U.S.C.
§ 5324 (d)(2)

Offense Ended

August 11, 2011
and
August 6, 2012

Count

The defendant is sentenced as provided in pages 2
through 7 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.

35a
 The defendant has been found not guilty on
count(s): Eleven
 Count(s) ____ is/are dismissed on the motion of the
United States.
It is ordered that the defendant must notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution, the defendant must notify the
court and United States attorney of material changes in
economic circumstances.
5/14/2014
Date of Imposition
Signature
Signature of Judge
The Honorable Edward M. Chen
United States District Judge
Name & Title of Judge
5/16/2014
Date

36a
IMPRISONMENT
The defendant is hereby committed to the custody of
the United States Bureau of Prisons to be imprisoned
for a total term of:
384 months and one day. This term consists of a
term of imprisonment of one day for Counts One,
Two and Four through Nine, to be served concurrently to each other, a term of imprisonment of 84
months on Count Three to be served consecutively
to that term, and a term of imprisonment of 300
months on Count Ten to be served consecutively to
all other sentences imposed.
 The Court makes the following recommendations to
the Bureau of Prisons:
The defendant be designated to a facility that has
vocational training programs available and to a facility in California, preferably in Northern California.
 The defendant is remanded to the custody of the
United States Marshal. The appearance bond is
hereby exonerated.
 The defendant shall surrender to the United States
Marshal for this district:
 at ____ am/pm on _____ (no later than 2:00 pm).
 as notified by the United States Marshal.
The appearance bond shall be deemed exonerated
upon the surrender of the defendant.
 The defendant shall surrender for service of sentence at the institution designated by the Bureau of
Prisons:

37a
 at ____ am/pm on _____ (no later than 2:00 pm).
 as notified by the United States Marshal.
 as notified by the Probation or Pretrial
Services Office.
The appearance bond shall be deemed exonerated
upon the surrender of the defendant.
RETURN
I have executed this judgment as follows:
Defendant delivered on 7-23-14 to FCI Herlong at
Herlong, California, with a certified copy of this
judgment.
Rafael Zuniga
UNITED STATES MARSHALL Warden
JIBessette
ByDEPUTY UNITED STATES CSU
MARSHAL

38a
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall
be on supervised release for a term of: three years on
Counts One through Ten, all such terms to run concurrently.
The defendant must report to the probation office in
the district to which the defendant is released within 72
hours of release from the custody of the Bureau of
Prisons.
The defendant shall not commit another federal, state
or local crime.
The defendant shall not unlawfully possess a controlled
substance. The defendant shall refrain from any unlawful use of a controlled substance. The defendant shall
submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests
thereafter, as determined by the court.
 The above drug testing condition is suspended,
based on the court’s determination that the defendant poses a low risk of future substance abuse.
(Check, if applicable.)
 The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous
weapon. (Check, if applicable.)
 The defendant shall cooperate in the collection of
DNA as directed by the probation officer. (Check,
if applicable.)
 The defendant shall comply with the requirements
of the Sex Offender Registration and Notification
Act (42 U.S.C. § 16901, et seq.) as directed by the
probation officer, the Bureau of Prisons, or any

39a
state sex offender registration agency in which he
or she resides, works, is a student, or was convicted
of a qualifying offense. (Check, if applicable.)
 The defendant shall participate in an approved
program for domestic violence. (Check, if applicable.)
If this judgment imposes a fine or restitution, it
is a condition of supervised release that the defendant
pay in accordance with the Schedule of Payments sheet
of this judgment.
The defendant must comply with the standard
conditions that have been adopted by this court as well
as with any additional conditions on the attached page.
STANDARD CONDITIONS OF SUPERVISION
1) The defendant shall not leave the judicial district
without the permission of the court or probation officer;
2) The defendant shall report to the probation officer
and shall submit a truthful and complete written
report within the first five days of each month;
3) The defendant shall answer truthfully all inquiries
by the probation officer and follow the instructions
of the probation officer;
4) The defendant shall support his or her dependents
and meet other family responsibilities;
5) The defendant shall work regularly at a lawful occupation, unless excused by the probation officer
for schooling, training, or other acceptable reasons;
6) The defendant shall notify the probation officer at
least ten days prior to any change in residence or
employment;

40a
7) The defendant shall refrain from excessive use of
alcohol and shall not purchase, possess, use, distribute, or administer any controlled substance or
any paraphernalia related to any controlled substances, except as prescribed by a physician;
8) The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
9) The defendant shall not associate with any persons
engaged in criminal activity and shall not associate
with any person convicted of a felony, unless granted permission to do so by the probation officer;
10) The defendant shall permit a probation officer to
visit him or her at any time at home or elsewhere
and shall permit confiscation of any contraband observed in plain view of the probation officer;
11) The defendant shall notify the probation officer
within seventy-two hours of being arrested or
questioned by a law enforcement officer;
12) The defendant shall not enter into any agreement
to act as an informer or a special agent of a law enforcement agency without the permission of the
court; and
13) As directed by the probation officer, the defendant
shall notify third parties of risks that may be occasioned by the defendant’s criminal record or personal history or characteristics and shall permit the
probation officer to make such notifications and to
confirm the defendant’s compliance with such notification requirement.

41a
SPECIAL CONDITIONS OF SUPERVISION
1.

The defendant shall pay any restitution and special
assessment that is imposed by this judgment and
that remains unpaid at the commencement of the
term of supervised release.

2.

The defendant shall not open any new lines of credit and/or incur new debt without the prior permission of the probation officer.

3.

The defendant shall provide the probation officer
with access to any financial information, including
tax returns, and shall authorize the probation officer to conduct credit checks and obtain copies of
income tax returns.

4.

The defendant shall submit his or her person, residence, office, vehicle, or any property under his or
her control to a search.· Such a search shall be conducted by a United States Probation Officer at a
reasonable time and in a reasonable manner, based
upon reasonable suspicion of contraband or evidence of a violation of a condition of release. Failure to submit to such a search may be grounds for
revocation; the defendant shall warn any residents
that the premises may be subject to searches.

5.

The defendant shall not own or possess any firearms, ammunition, destructive devices, or other
dangerous weapons.

6.

The defendant shall cooperate in the collection of
DNA as directed by the probation officer.

42a
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary
penalties under the schedule of payments.
Assessment
TOTALS


$1,000

Fine

Restitution

Waived

$907,000

The determination of restitution is deferred until
______ . An Amended Judgment in a Criminal
Case (AO 245C) will be entered after such determination.

 The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority
order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal
victims must be paid before the United States is
paid.
Name of
Payee

Total
Loss*

Restitution Priority
or PerOrdered
centage

Garda World
Cash Services Attn:
Bob Os-

$907,000

$907,000

*

100%

Findings for the total amount of losses are required under
Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after September 13, 1994, but before April 23, 1996.

43a
borneCorporate
Security
15415 Slover
Avenue Fontana, CA
92337

TOTALS

$907,000.00

$907,000.00

44a
 Restitution amount ordered pursuant to plea
agreement $ __________
 The defendant must pay interest on restitution and
a fine of more than $2,500, unless the restitution or
fine is paid in full before the fifteenth day after the
date of the judgment, pursuant to 18 U.S.C.
§ 3612(f). All of the payment options on Sheet 6
may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
 The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
 the interest requirement is waived for the fine/restitution.
 the interest requirement is waived for the fine/restitution is modified as follows:
_________
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as
follows*:
A

 Lump sum payment of $908,000 due immediately, balance due
 not later than ____ , or
 in accordance with C, D, or E, and/or
 F below); or

*

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine
principal, (5) fine interest, (6) community restitution, (7) penalties,
and (8) costs, including cost of prosecution and court costs.

45a
B

 Payment to begin immediately (may be combined with C, D, or F below); or

C

 Payment in equal ____ (e.g., weekly, monthly,
quarterly) installments of _____ over a period
of ____ ( e.g., months or years), to commence
____ ( e.g., 30 or 60 days) after the date of this
judgment; or

D

 Payment in equal ____ (e.g., weekly, monthly,
quarterly) installments of _____ over a period
of ____ (e.g., months or years), to commence
____ (e.g., 30 or 60 days) after release from imprisonment to a term of supervision; or

E

 Payment during the term of supervised release
will commence within 60 days (e.g., 30 or 60
days) after release from imprisonment. The defendant shall make payments in the amount of
$100 per month.

F

 Special instructions regarding the payment of
criminal monetary penalties:
When incarcerated, payment of criminal
monetary penalties are due during imprisonment at the rate of not less than $25 per
quarter and payment shall be through the
Bureau of Prisons Inmate Financial Responsibility Program. Criminal monetary
payments shall be made to the Clerk of U.S.
District Court, 450 Golden Gate Ave., Box
36060, San Francisco, CA 94102.

Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of criminal monetary penalties is due during imprisonment.
All criminal monetary penalties, except those payments
made through the Federal Bureau of Prisons’ Inmate

46a
Financial Responsibility Program, are made to the
clerk of the court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary penalties imposed.
 Joint and Several
Case Number Defendant and CoDefendant
Names (including defendant
number)

Total
Amount

Joint
Corresponding
and
Payee, if apSeveral propriate
Amount

 The defendant shall pay the cost of prosecution.
 The defendant shall pay the following court cost(s):
_____
 The defendant shall forfeit the defendant’s interest
in the following property to the United States: 2011
Harley-Davidson Motorcycle bearing license plate
number 20R3956; a 2005 Harley-Davidson Motorcycle bearing license plate number NORYDS; a
1997 Harley-Davidson Motorcycle bearing license
plate number 6KOR650; a 2011 Kawasaki KLR 650
Motorcycle; a 2010 Hyundai Genesis bearing license
plate number 6TBD651; a 1963 Chevy Impala bearing license plate number 6TXA180; a Deep Arch
Corrugated Quonset Hut Style Building; and a
Edwards 60-Ton Hydraulic Ironworker
 The Court gives notice that this case involves other
defendants who may be held jointly and severally liable

47a
for payment of all or part of the restitution ordered
herein and may order such payment in the future, but
such future orders do not affect the defendant’s
responsibility for the full amount of the restitution ordered.

49a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 14-10268
D.C. No. 3:12-cr-00834-EMC-1
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
MONICO DOMINGUEZ,
Defendant-Appellant.
Filed August 24, 2020
Northern District of California
San Francisco
ORDER
Before: SILVERMAN and NGUYEN, Circuit Judges,
and ANELLO,* District Judge.
The panel has voted to deny the petition for rehearing. Judge Nguyen would grant the petition for rehearing.
Judges Silverman and Anello recommended denying the petition for rehearing en banc. Judge Nguyen
voted to grant the petition for rehearing en banc.

*

The Honorable Michael M. Anello, United States District
Judge for the Southern District of California, sitting by designation.

50a
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote on
whether to rehear the matter en banc. See Fed. R.
App. P. 35.
Dominguez’s petition for rehearing and for rehearing en banc (Docket Entry No. 138) is denied.

51a
APPENDIX D
RELEVANT STATUTORY PROVISIONS
18 U.S.C. § 924
§ 924. Penalties
*

*

*

(c)(1)(A) Except to the extent that a greater minimum sentence is otherwise provided by this subsection
or by any other provision of law, any person who, during and in relation to any crime of violence or drug trafficking crime (including a crime of violence or drug trafficking crime that provides for an enhanced punishment
if committed by the use of a deadly or dangerous weapon or device) for which the person may be prosecuted in
a court of the United States, uses or carries a firearm,
or who, in furtherance of any such crime, possesses a
firearm, shall, in addition to the punishment provided
for such crime of violence or drug trafficking crime—
(i) be sentenced to a term of imprisonment of not
less than 5 years;
(ii) if the firearm is brandished, be sentenced to a
term of imprisonment of not less than 7 years; and
(iii) if the firearm is discharged, be sentenced to a
term of imprisonment of not less than 10 years.
(B) If the firearm possessed by a person convicted of a
violation of this subsection—
(i) is a short-barreled rifle, short-barreled shotgun,
or semiautomatic assault weapon, the person shall
be sentenced to a term of imprisonment of not less
than 10 years; or

52a
(ii) is a machinegun or a destructive device, or is
equipped with a firearm silencer or firearm muffler,
the person shall be sentenced to a term of imprisonment of not less than 30 years.
(C) In the case of a violation of this subsection that occurs after a prior conviction under this subsection has
become final, the person shall—
(i) be sentenced to a term of imprisonment of not
less than 25 years; and
(ii) if the firearm involved is a machinegun or a destructive device, or is equipped with a firearm silencer or firearm muffler, be sentenced to imprisonment for life.
(D) Notwithstanding any other provision of law—
(i) a court shall not place on probation any person
convicted of a violation of this subsection; and
(ii) no term of imprisonment imposed on a person
under this subsection shall run concurrently with
any other term of imprisonment imposed on the
person, including any term of imprisonment imposed for the crime of violence or drug trafficking
crime during which the firearm was used, carried,
or possessed.
(2) For purposes of this subsection, the term “drug
trafficking crime” means any felony punishable under
the Controlled Substances Act (21 U.S.C. 801 et seq.),
the Controlled Substances Import and Export Act (21
U.S.C. 951 et seq.), or chapter 705 of title 46.
(3) For purposes of this subsection the term “crime of
violence” means an offense that is a felony and—

53a
(A) has as an element the use, attempted use, or
threatened use of physical force against the person
or property of another, or
(B) that by its nature, involves a substantial risk
that physical force against the person or property
of another may be used in the course of committing
the offense.
(4) For purposes of this subsection, the term “brandish” means, with respect to a firearm, to display all or
part of the firearm, or otherwise make the presence of
the firearm known to another person, in order to intimidate that person, regardless of whether the firearm is
directly visible to that person.
(5) Except to the extent that a greater minimum sentence is otherwise provided under this subsection, or by
any other provision of law, any person who, during and
in relation to any crime of violence or drug trafficking
crime (including a crime of violence or drug trafficking
crime that provides for an enhanced punishment if
committed by the use of a deadly or dangerous weapon
or device) for which the person may be prosecuted in a
court of the United States, uses or carries armor piercing ammunition, or who, in furtherance of any such
crime, possesses armor piercing ammunition, shall, in
addition to the punishment provided for such crime of
violence or drug trafficking crime or conviction under
this section—
(A) be sentenced to a term of imprisonment of not
less than 15 years; and
(B) if death results from the use of such ammunition—
(i) if the killing is murder (as defined in section
1111), be punished by death or sentenced to a

54a
term of imprisonment for any term of years or
for life; and
(ii) if the killing is manslaughter (as defined in
section 1112), be punished as provided in section 1112.
*

*

*

55a
18 U.S.C. § 1951
§ 1951. Interference with commerce by threats or
violence
(a) Whoever in any way or degree obstructs, delays, or
affects commerce or the movement of any article or
commodity in commerce, by robbery or extortion or attempts or conspires so to do, or commits or threatens
physical violence to any person or property in furtherance of a plan or purpose to do anything in violation of
this section shall be fined under this title or imprisoned
not more than twenty years, or both.
(b) As used in this section—
(1) The term “robbery” means the unlawful taking
or obtaining of personal property from the person
or in the presence of another, against his will, by
means of actual or threatened force, or violence, or
fear of injury, immediate or future, to his person or
property, or property in his custody or possession,
or the person or property of a relative or member
of his family or of anyone in his company at the
time of the taking or obtaining.
(2) The term “extortion” means the obtaining of
property from another, with his consent, induced
by wrongful use of actual or threatened force, violence, or fear, or under color of official right.
(3) The term “commerce” means commerce within
the District of Columbia, or any Territory or Possession of the United States; all commerce between
any point in a State, Territory, Possession, or the
District of Columbia and any point outside thereof;
all commerce between points within the same State
through any place outside such State; and all other

56a
commerce over which the United States has jurisdiction.
(c) This section shall not be construed to repeal, modify or affect section 17 of Title 15, sections 52, 101-115,
151-166 of Title 29 or sections 151-188 of Title 45.

